                                    SOCIAL SECURITY
MEMORANDUM


Date:   January 21, 2004                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Appeals Council Process Improvement Action Plan (A-12-02-12015)



        The attached final report presents the results of our evaluation. Our objective was to
        assess the effectiveness of the seven short-term initiatives of the Appeals Council
        Process Improvement Action Plan.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                    James G. Huse, Jr.

        Attachment
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




       APPEALS COUNCIL
  PROCESS IMPROVEMENT ACTION
             PLAN

  JANUARY 2004   A-12-02-12015




EVALUATION REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                    Executive Summary
OBJECTIVE
Our objective was to assess the effectiveness of the seven short-term initiatives of the
Appeals Council Process Improvement Action Plan (ACPI).

BACKGROUND
During the 1990s the Appeals Council’s workload grew dramatically and there was also
a significant increase in the time it took claimants to receive a final decision. The
requests for review increased from 69,000 in 1994 to 115,000 in 1999. The average
processing time for requests for review in 1994 was 118 days.1 In Fiscal Year
(FY) 1999, the average processing time was 458 days. The pending workload
increased from 22,000 cases in 1994 to 145,000 cases in 1999.2

To address the increased workload and processing times, the Deputy Commissioner for
Disability and Income Security Programs released the ACPI in March of 2000. The plan
contained short-term initiatives for achieving higher productivity, lower processing time,
and improved public service. The initiatives were designed to get the number of
pending cases to 16,224 and processing days to 90 by September 30, 2003.

RESULTS OF REVIEW
It was not possible to determine the effectiveness of each of the seven short-term
initiatives. Although the Office of Appellate Operation’s (OAO) pending workload and
processing days have decreased since ACPI began, some of the decrease was
attributable to ACPI and some was due to the decrease in requests for reviews. The
extent that ACPI contributed cannot be measured in its entirety since OAO did not track
all of the initiatives. Two of the initiatives were tracked, four were not measurable, and
one did not happen.

As of September 30, 2003 the number of pending cases was 51,078 and processing
days was 294, higher than the ACPI goals. As part of the differential case management
initiative, the Appeals Council placed a heightened emphasis on processing aged
requests for review using streamlined formats for issuing decisions and remands. The
OAO established an aged case task force which served from May to August 2001. Its
goals were to clear all ready-to-work aged requests for review, reduce processing time,
reduce pending cases, and improve public service. The task force defined aged cases


1
 Social Security Administration, Office of Hearings and Appeals: Appeals Council Process Improvement
Action Plan, March 2000.
2
 Social Security Administration, Office of Hearings and Appeals, Key Workload Indicators Fiscal Year
2002.


Appeals Council Process Improvement Action Plan (A-12-02-12015)                                        i
as those that are 2 years old or older. The aged case task force made
recommendations on 4,536 aged cases during its 4 months.

We are encouraged that the Office of Hearings and Appeals is making progress, but it
appears that the ACPI goals were too ambitious to be achieved within the timeframes
established. We believe that more realistic goals would serve as better motivation for
the employees.

OHA employees who responded to our questionnaire had mixed opinions on quality of
service to claimants and case processing efficiency. Also, respondents felt that ACPI
did not have a significant impact on job satisfaction, positively or negatively. In
responding to our questionnaire, 194 employees offered suggestions for reducing the
pending workload and 200 employees offered ideas to reduce processing times.

CONCLUSIONS AND RECOMMENDATIONS
OAO has made progress reducing its pending workload, and to a lesser extent, the
processing days. OAO has benefited from having far fewer requests for reviews than
they expected. We recognize that the Commissioner plans to eliminate the Appeals
Council in FY 2006, but our recommendations are relevant since OAO needs to work on
these cases during the next 2 years. Our recommendations will help SSA to improve
service to the claimant and reduce its pending workload.

AGENCY COMMENTS
In response to our draft report, SSA agreed with Recommendations 2, 3 and 4. SSA
partially agreed with recommendation 1. The full text of SSA’s comments is included in
Appendix H.

OIG RESPONSE

Our first recommendation stated that the initiatives be measured prospectively.
Therefore, we do not expect SSA to measure initiatives which have ended.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                      ii
                                                                Table of Contents
                                                                                                              Page


INTRODUCTION.......................................................................................................1

RESULTS OF REVIEW ............................................................................................3

    Goals Not Met, But OAO Is Making Progress ......................................................3

    Questionnaire Results ..........................................................................................8

CONCLUSIONS AND RECOMMENDATIONS.......................................................12

APPENDICES

Appendix A - Scope and Methodology
Appendix B - Number of Employees by Position Who Responded to our Questionnaire
Appendix C - Questionnaire Design
Appendix D - Questions and Answers to Questionnaire
Appendix E - Profile of Respondents
Appendix F - Narrative Responses to Questionnaire
Appendix G - The Aged Case Task Forces
Appendix H - Agency Comments
Appendix I - OIG Contacts and Staff Acknowledgments




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                  Acronyms

 AAJ           Administrative Appeals Judge

 AC            Appeals Council

 ACPI          Appeals Council Process Improvement Action Plan

 ALJ           Administrative Law Judge

 AO            Appeals Officer

 DCM           Differential Case Management

 FY            Fiscal Year

 GS            General Schedule

 HALLEX        Hearings, Appeals and Litigation Law Manual

 KWI           Key Workload Indicator

 MPA           Managers Process Appeals

 OAO           Office of Appellate Operations

 OGC           Office of the General Counsel

 OHA           Office of Hearings and AppealsOffice of the Inspector General

 OIG           Office of the Inspector General

 OQA           Office of Quality Assurance

 RR            Request for Review

 SSA           Social Security Administration




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                        Introduction
OBJECTIVE
Our objective was to assess the effectiveness of the seven short-term initiatives of the
Appeals Council Process Improvement Action Plan (ACPI).

BACKGROUND
The Appeals Council, a component of SSA’s Office of Hearings and Appeals (OHA),
provides the final level of administrative review of claims for benefits under the Social
Security Act.1 The Council consists of 26 Administrative Appeals Judges (AAJ) and is
supported by the Office of Appellate Operations (OAO). A claimant who disagrees with
the hearing decision of an Administrative Law Judge (ALJ) may ask for a review by the
Appeals Council. The Appeals Council may deny or dismiss the request, or may grant
the request and either issue a decision or remand the case to an ALJ. The Appeals
Council reviews a case if:2

           •   there appears to be an abuse of discretion by the ALJ;

           •   there is an error of law;

           •   the action, findings or conclusions of the ALJ are not supported by
               substantial evidence;

           •   there is a broad policy or procedural issue that may affect the general
               public interest; or

           •   new and material evidence is submitted, which relates to the period on or
               before the date of the ALJ decision, and the Appeals Council finds that the
               ALJ’s action, findings, or conclusion is contrary to the weight of the
               evidence currently of record.

During the 1990s the Appeals Council’s workload grew dramatically and there was a
corresponding increase in the time it took claimants to receive a final decision. The
requests for review increased from 69,000 in 1994 to 115,000 in 1999. The average
processing time for requests for review in 1994 was 118 days. In Fiscal Year (FY)
1999, the average processing time was 458 days. The pending workload increased
from 22,000 cases in 1994 to 145,000 cases in 1999. The growth in the request for
review workload paralleled the growth in OHA’s hearing workload over the same period.

1
 20 Code of Federal Regulations §§ 404.966, et seq., 416.1466, et seq., and 422.205.
2
 Hearings, Appeals and Litigation Law Manual (HALLEX): I-3-3-1- Appeals Council Jurisdiction,
May 21, 2002.


Appeals Council Process Improvement Action Plan (A-12-02-12015)                                 1
In addition, during FY 1995 and FY 1996, about one-third of OAO staff provided support
to the hearing offices under the Short-Term Disability Project. Hearing level dispositions
increased, in part, because of that project. At the same time, the hearing allowance rate
declined, resulting in more appeals.

To address the increased workload and processing times, the Deputy Commissioner for
Disability and Income Security Programs released the ACPI in March 2000. The plan
contained short- and long-term strategies for achieving higher productivity, lower
processing time, and improved public service. The short-term elements of the plan
incorporated three approaches to reduce pending workloads and processing times by:
increasing productivity of existing staff, adding resources to increase capacity, and
adjusting incoming workloads. ACPI contained seven short-term initiatives designed to
get the number of pending cases to 16,224 and processing days to 90 by
September 30, 2003. The short-term initiatives are:

          o   Managers Process Appeals,
          o   Counsel-to-Council,
          o   Hire New Analysts,
          o   Differential Case Management,
          o   Adjustment of the Pre-Effectuation Review Sample
          o   Expedited Decision-making
          o   ALJs as Acting AAJs.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                        2
                                                   Results of Review
It was not possible to determine the effectiveness of each of the seven short-term
initiatives. Although OAO’s pending workload and processing days have decreased
since ACPI began, some of the decrease was attributable to ACPI and some was due to
the decrease in requests for reviews. The extent that ACPI contributed cannot be
measured in its entirety since OAO did not track all of the initiatives. Two of the
initiatives were tracked, four were not measurable, and one did not happen.

GOALS NOT MET, BUT OAO IS MAKING PROGRESS
OAO has made progress reducing its pending workload and decreasing the number of
processing days. As of September 2003 the pending had decreased markedly to
51,078 although it was far from the goal of 16,224. The number of processing days has
improved from 412 days on September 30, 2002 to 294 days at the end of September
2003, but OAO was not near the goal of 90 days projected for FY 2003. We believe
more realistic goals would serve as better motivation for OAO employees. OAO needs
to continue focusing on reducing the number of processing days.

Since ACPI began in March 2000, the actual number of requests for review has been
much lower than the estimated numbers in the ACPI plan. The primary reason for the
decrease was due to a lower than expected workload in hearing offices. Hearing office
dispositions have averaged approximately 100,000 less for FYs 2000-2002 than they
did the prior 3 years. Consequently, OAO has benefited by having a smaller workload
of new cases than it had forecast. According to the plan, OHA expected 115,700
requests for review in FY 2002, but received only 83,100 that year. In FY 2003, the
forecast was for 115,900, but the actual number of receipts was 92,000.

OAO was fortunate that receipts were less than projected. The lower than expected
new workload has allowed the Appeals Council to work on and reduce its pending
workload during that time. Since OAO has disposed of more cases than it has received
the past few years it has reduced the pending from 127,687 at the end of FY 2000 to
51,078 in FY 2003. If the requests for review continue to increase as SSA anticipates
due to the baby boom generation entering the disability-prone years, then the pending
will again rise unless OHA aggressively follows ACPI.

MANAGERS PROCESS APPEALS

Under this initiative, all OAO employees at the GS-14 level or higher were to
independently review and process at least one request for review per day. This
initiative was projected to be responsible for 11,480 dispositions in 2000, and 19,680 in
FY 2001. OHA tracked this information and its records indicated that managers
disposed of 6,438 cases in FY 2000, and 3,340 in FY 2001. The actual dispositions
were more than 5,000 below the FY 2000 goal and more than 16,000 below the



Appeals Council Process Improvement Action Plan (A-12-02-12015)                        3
FY 2001 goal. This effort showed some early promise, with an average of over
1,100 dispositions a month during the first 4 months of ACPI. The average number of
monthly dispositions decreased to about 275 in FY 2001.

At the time we did our fieldwork there were 84 OAO managers. One group of managers
– Appeals Officers – did not have an agreement with the union to process cases,
consequently they processed no cases. Of the remaining 53 managers, 28 or slightly
more than half processed cases. Some managers did not do any reviews because of
other job demands. The managers were involved in various projects, including the aged
case task force, training, case inventory, and oversight of the Megasite. Some branch
chiefs managed two branches. Other managers’ participation in this initiative decreased
over time.

COUNSEL-TO-COUNCIL INITIATIVE

The Office of the General Counsel (OGC) provided 25 work years of staff time to
provide analytical support to the Appeals Council in processing request for review
cases. OAO trained OGC staff attorneys to produce analyses and action documents on
requests for review. A Memorandum of Understanding with the union stated that OAO
staff would make necessary changes to cases completed by attorneys.3 Therefore, it
involved more work on OAO’s part to process and issue final decisions. Also, some
OGC attorneys assigned were the least experienced and AAJs had to rework
216 cases. The Counsel-to-Council initiative was projected to be responsible for
7,000 dispositions in 2000. According to OAO records, the OGC disposed of
5,122 cases that year, almost 1,900 under the goal.

HIRE NEW ANALYSTS

OAO had planned to add 20 analysts in FY 2000 and projected that these new hires
would be responsible for 280 dispositions in FY 2000, 5,660 in FY 2001 and 6,960 in
FY 2002. The hiring was delayed until 2001 when 39 analysts began work. OAO has
data on the number of dispositions each of the new analysts was responsible for.
However, 50 analysts have left OAO or been reassigned during the past 2 1/2 years.
Therefore, it was not possible for OAO to determine the extent the hiring initiative has
had upon the dispositions since there are fewer analysts now than there were before
the hiring took place.

DIFFERENTIAL CASE MANAGEMENT

The goal of DCM is to provide speedier service for different types of claims and to
ensure that the Appeals Council (AC) identifies and acts on cases that deserve
immediate processing. The Appeals Council has historically processed requests for
review on a first-in, first-out basis with exceptions for specified cases requiring
expedited handling. Under DCM, staff initially examines all requests for review shortly

3
 Memorandum of Understanding regarding temporary transfer of work dated February 15, 2000 with
Social Security Administration and the American Federation of Government Employees.


Appeals Council Process Improvement Action Plan (A-12-02-12015)                                  4
after receipt to identify the appropriate case processing track and to process to
completion cases identified for expedited action. Cases identified during this process
include easily workable cases, dismissals, cases where previous remands have been
issued, and cases warranting payment and obvious remands. Because of the nature of
these cases and the fact that they are rather new compared to other pending cases,
they are less complicated to work than other pending cases.

OAO has found that such cases can be processed more quickly because the files
contain much less additional evidence to review than older cases. Streamlined action
documents are used to expedite service. A small number of analysts in each OAO
program branch screens 150 cases per week and immediately processes about
30 percent of these cases. OAO projected that DCM would be responsible for
13,720 dispositions in 2000, 23,520 in 2001 and 29,400 in 2002. OAO determined that
the actual dispositions from DCM were not measurable.

All OAO employee groups who responded to our questionnaire ranked DCM as the
most effective strategy for reducing processing days. Three of the four groups ranked it
first for reducing pending workloads.

OAO’s aged case task force made recommendations to the AC on 5,213 aged cases in
2002. There were 193 favorable decisions issued. Although the task force did not
keep track of the actual number of remands, the AC remand rate was 25.1 percent in
FY 2002. The percentage of favorable decisions on remands was 67.4 percent.
Applying these percentages to the 5,213 aged cases would result in an additional
881 favorable decisions. OHA should consider establishing another aged case task
force since approximately 20 percent of decisions are favorable. See Appendix G for
details on the aged case task forces.

ADJUSTMENT OF THE PRE-EFFECTUATION REVIEW SAMPLE

The Office of Quality Assurance (OQA) reviews a sample of up to 10,000 favorable
hearing decisions per year and refers cases it believes require corrective action to the
Appeals Council. The reviews resulting from the OQA referrals take longer than the
requests for review because more work is involved. Under ACPI, the sample was
reduced by 30 percent to help the Appeals Council improve processing time.
Adjustment of the OQA sample was projected to be responsible for 1,683 dispositions in
FY 2000, and 2,178 in FY 2001.

OAO could not provide information on how many dispositions this initiative was
responsible for because they did not measure it. They believed it contributed to ACPI
goals since requests for review take less time than OQA reviews, therefore freeing up
AAJ time for more request for review dispositions. Initially, the reduced sample size
was scheduled to end on December 31, 2001. Due to scarce resources, the lower
sample size has continued.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                         5
EXPEDITED DECISION-MAKING

Analysts who are not screening cases under DCM present cases orally to adjudicators
with the goal of resolving issues earlier in the process and enabling analysts to process
at least two cases per day. Expedited decision-making was projected to be responsible
for 3,763 dispositions in FY 2000, and 7,526 in both FYs 2001 and 2002. Although
OAO established a numerical goal for this initiative, management said it was not
measurable, but in theory should contribute to more dispositions.

ADMINISTRATIVE LAW JUDGES AS ACTING ADMINISTRATIVE APPEALS
JUDGES

OAO planned to appoint retired ALJs as Acting AAJs to independently review and
process requests for review. This initiative was projected to be responsible for
2,100 dispositions in FY 2000, 8,400 in FY 2001 and 2,100 in FY 2002. The initiative of
rehiring ALJs and appointing them as Acting AAJs was postponed because of a heavy
workload in the hearing offices. The rehired ALJs continued working in hearing offices
and not with the AC.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                        6
OHA needs to track the number of dispositions resulting from the four initiatives it did
not measure. With that information, OHA can then determine which initiatives are most
effective and shift resources accordingly.

       Table 1 shows the ACPI forecast and the actual results for the past 3 FYs.


         TABLE 1: ACPI Forecast and the Actual Results (FYs 2000-2002)

                               FY 2000                FY 2001                   FY 2002
                         ACPI        Actual      ACPI       Actual        ACPI        Actual
                        Forecast     Results    Forecast    Results      Forecast     Results

Receipts                  100,950    106,358      99,807     78,833       115,718     83,063

Dispositions              134,191    125,235     162,034    110,668       142,176     115,467

Pending                   113,323    127,687      51,096     95,355        24,638     59,781
Processing Time
(days)                        282      505            160         447           102    412
  ACPI Initiatives
Managers Process
Appeals                   11,480      6,438      19,680       3,340         0             0

Counsel-to-Council        7,000       5,122          0             0        0             0
Add New Analysts             280        0         5,660            0**    6,960           0**
Differential Case
Management                 13,720        *        23,520           *       29,400         *
Adjustment of the
Pre-Effectuation
Review Sample               1,683        *          2,178          *        0             *
 Expedited
 Decision-making          3,763        *          7,526     *               7,526         *
 Hiring
 Administrative Law
 Judges As Appeals
 Judges                   2,100        0          8,400     0               2,100         0
An asterisk (*) denotes that the initiative is not measurable.

Asterisks (**) denotes that the information was not available.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                               7
QUESTIONNAIRE RESULTS

OAO employees who responded to our questionnaire (Judges, AOs, managers, and
analysts) indicated that ACPI resulted in improvements to the appeals process.
Employees found case processing more efficient, and the quality of service to claimants
was better or the same. ACPI had no effect on employee job satisfaction. Most
employees did not have a change in responsibilities, although more than half reported a
greater workload. (Some respondents did not answer all questions.)

DIFFERING OPINIONS ON QUALITY OF SERVICE TO CLAIMANTS UNDER ACPI

As illustrated in Figure 1, three of the four employee groups indicated that service was
better since ACPI was implemented. Of those employees who responded to our
survey, 10 of 13 AAJs, 11 of 15 AOs and 18 of 32 OAO Managers responded that
quality of service was better. However, only 42 of 136 OAO analysts responded that
service was better. Most of the positive comments we received stated that the primary
reason claimant service was better under ACPI was due to more claimants receiving
faster service. Some of the respondents who believed service was worse indicated that
complex cases were set aside to work the more recent and less difficult cases.



        Percentages
                                     FIGURE 1: QUALITY OF SERVICE

            90%
            80%
            70%
            60%                                                                 Worse
            50%
                                                                                Better
            40%
            30%                                                                 Same
            20%
            10%
             0%
                        AAJs         AOs             OAO          Analysts
                                                   Managers



One respondent said the “…quality of service to claimants is better - many more
claimants receive a response in less time than before ACPI due to the Differential Case
Management initiative. Also, the aged case task force initiative has released many of
the oldest pending cases than would have been processed before ACPI.” Another
respondent said: “Easy cases are processed quickly. Hard cases are put aside until
there is time to do them. But there never is time to do them and they become older and
older.”




Appeals Council Process Improvement Action Plan (A-12-02-12015)                          8
MIXED OPINIONS ON CASE PROCESSING

As illustrated in Figure 2, employees who responded to our survey included 13 AAJs,
14 AOs, and 27 OAO managers. Of these, 10 AAJs, 12 AOs, and 17 managers
believed case processing was more efficient. However, only 61 of 142 analysts
responded that case processing was more efficient.


                                     Figure 2: Case Processing

                        90%
          Percentages




                        80%
                        70%
                        60%                                             More Efficient
                        50%
                                                                        Less Efficient
                        40%
                        30%                                             No Change
                        20%
                        10%
                         0%
                              AAJs     AOs    OAO Managers   Analysts




One respondent who said ACPI was more efficient stated, “…aged cases and critical
cases are being identified and processed much earlier than before and cases that lend
themselves to quick processing are being identified and dispositions rendered.”
Another respondent said ACPI was less efficient indicating that it has been “…very
stressful to produce the number of cases asked and seems it does not matter whether
cases are done correctly.”

ACPI DID NOT SIGNIFICANTLY AFFECT JOB SATISFACTION

As illustrated in Figure 3, job satisfaction seems to be tied to the type of work performed
by the various groups. Of those who responded, 58 percent believed there was no
effect. Of the 58 percent, 3 of 13 were AAJs, 6 of 16 were AOs, 23 of 32 were OAO
managers and 97 of 162 were analysts. Of the four groups of respondents, the analysts
reported the lowest percentage of job satisfaction. AOs and AAJs reported higher job
satisfaction from ACPI than the managers and analysts. Almost half of the AOs and
almost 70 percent of the AAJs reported a positive effect. Respondents in these two
groups stated that they were able to manage the pending workload, and process more
cases timely and efficiently, thereby improving customer service. Some of these
respondents reported more stress and an increased pressure to produce that could lead
to burnout.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                          9
             Percentages
                        Figure 3: Job Satisfaction

                 100%
                  80%                                                  No Effect
                  60%
                                                                       Negative
                  40%
                  20%                                                  Positive
                   0%

                           AAJ          AO   OAO Managers Analysts




One respondent stated:

   “…reducing the backlog, and providing better service to claimants makes the job
   more satisfying. It was frustrating to work on cases in which the claimants filed the
   request for review several years ago. Also, as the backlog is reduced we are
   working on more current cases-they are generally easier to work with…there is less
   new evidence, less has happened since the ALJ decision, less chance of a favorable
   decision on a subsequent application.”

Another respondent said:

   “…cases that have been skimmed and worked out of turn have led to a large
   workload of older cases with additional evidence, briefs, and other complicating
   factors. This has resulted in difficulties meeting production goals and will likely
   worsen in the future. Our branch is more current than most, so we receive transfers
   from other branches, with many older and more time-consuming cases.”

A third respondent stated “…it is not proper to work the easiest and newest cases first
and leave the oldest and harder cases for later. The newer analysts are not trained
properly and the more experienced analysts get stuck with all the hardest cases
because many of the newer people cannot work them properly.”




Appeals Council Process Improvement Action Plan (A-12-02-12015)                           10
WORKLOAD CHANGE AND CHANGE IN RESPONSIBILITY

Fifty-four percent of respondents reported an increase in workload since ACPI began,
while only three percent reported a decrease. Of those who responded to our survey,
12 out of 13 AAJs, 9 out of 12 AOs, 16 out of 32 OAO Managers, and 77 out of
153 analysts stated there was an increase in workload. Judges reported that they had
more work due to the aged case task force, managers processing appeals and higher
analyst productivity from the DCM. One respondent who reported an increase said that
although “…analysts are producing more cases, they are providing less analysis.” This
respondent had to do more work to ensure that decisions were accurate.

Most OAO employees who responded to our questionnaire said that ACPI did not result
in a change in responsibility. Seventy two percent of respondents indicated no change.

PRODUCTIVITY GOALS

Most respondents indicated that their branch was expected to meet productivity goals.
Ninety-four percent of respondents stated that the branch was expected to meet goals,
and 82 percent reported that they were expected to meet individual productivity goals.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                      11
                                                  Conclusions and
                                                 Recommendations
OAO has made progress reducing its pending appeals workload, and to a lesser extent,
the processing days. Most of the ACPI initiatives were not measured. OAO has
benefited from having far fewer requests for reviews than it expected.

RECOMMENDATIONS

We recognize that the Commissioner plans to eliminate the Appeals Council in
FY 2006, but our recommendations are relevant since OAO needs to work on these
cases during the next 2 years. To improve service to the claimant and reduce the
pending workload, we recommend SSA:

1.     Measure the actual dispositions for each of the initiatives prospectively, to better
       determine which ones are working best and shift resources accordingly.

2.     Consider the use of an aged case task force to process cases older than 2 years.

3.     Develop goals that have a much higher possibility of achievement.

4.     Consider the suggestions made by employees to reduce pending workload and
       processing days, which are contained in Appendix F.


AGENCY COMMENTS

SSA partially agreed with our first recommendation and agreed with the other three
recommendations. The Agency’s concern with the first recommendation is that two
initiatives (Expedited Decision-making and Adjustment of the Pre-effectuation Review
Sample) cannot be measured and two other initiatives (Counsel-to-Council and
Managers Process Appeals) have ended and cannot be tracked. SSA plans to track
and measure two of the initiatives DCM and New Analysts. The full text of SSA’s
comments is contained in Appendix H.

OIG RESPONSE

Our first recommendation stated that the initiatives be measured prospectively.
Therefore, we do not expect SSA to measure initiatives which have ended.

In commenting on our draft report, SSA expressed concern that the fourth paragraph on
page 5 of the report could be misunderstood as saying that OAO should consider using



Appeals Council Process Improvement Action Plan (A-12-02-12015)                          12
an aged case task force with a view to remanding older cases, because remands result
in allowances at a relatively higher rate.

We recommend that SSA consider the use of an aged case task force. Our
recommendation is based in part on the success of the two previous aged case task
forces, which are discussed in Appendix G. From January 2002 through May 2003 the
number of aged cases decreased from more than 16,000 to about 8,000, partly due to
the aged case task force. In addition to reducing the number of aged cases and thereby
serving claimants who have been waiting the longest, the fact that approximately
20 percent of these claimants receive favorable decisions make establishment of an
aged case task force worthwhile.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                    13
                                          Appendices




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                    Appendix A

SCOPE AND METHODOLOGY
We reviewed the results of each of the seven short-term initiatives, comparing actual
dispositions against the projections in the Appeals Council Process Improvement plan
(ACPI) for Fiscal Years 2000-2002. We reviewed the ACPI and supporting
documentation. We also had discussions with Office of Appellate Operations (OAO)
management and staff.

We sent questionnaires to 455 OAO employees seeking information from them on their
experience with ACPI. We sent the questionnaires in May 2002, and followed up with
non respondents in June and July 2002. Employees receiving the questionnaires were
in one of four groups – Administrative Appeals Judges (AAJ), Appeals Officers (AO),
Managers, and Analysts. Before sending the questionnaires, we surveyed the
questions with employees in each of the four groups and made modifications as
appropriate. Two hundred fifty employees responded (a 55 percent response rate). We
received a response rate of at least 50 percent from each group. See Appendix B for
the number of responses by employee group. The questionnaires consisted of
questions common to all employees and other questions directed specifically to the
groups (See Appendix C).

We conducted work between March 2002 and March 2003. The entity reviewed was
Office of Hearings and Appeals under the Deputy Commissioner for Disability and
Income Security Programs. We performed our evaluation in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.

In September 2003, after the completion of our fieldwork, the Commissioner testified
before Congress on an approach to improve the disability process. Part of that
testimony included eliminating the Appeals Council.




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                     Appendix B

Number of Employees by Position Who
Responded to our Questionnaire

                                                         Number of        Percent
              Position                   Universe        Responses      Responding
 Administrative Appeals Judges                    26               13          50%
 Appeals Officers                                 31               19          61%
 Office of Appellate Managers                     53               35          66%
 Program Analysts                                345              183          53%
 Total                                           455              250          55%




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                      Appendix C

Questionnaire Design
The questionnaire format for all four groups was similar. Some questions were asked of
all groups and other questions to certain groups.

                         Questions asked of all respondents:

1. What changes would you suggest to reduce processing time?

2. What changes would you suggest to reduce pending workload?

3. How would you rate the quality of service for claimants under ACPI
   compared to pre-ACPI? 1) Worse 2) Better 3) Same

4. How would you rate case processing under ACPI compared to pre-
   ACPI? 1) More Efficient 2) Less Efficient 3) No Change

5. How has your workload changed since the start of ACPI in March
   2000? 1) More Work 2) Less Work 3) No Change

6. Is your branch expected to meet productivity goals? ___Yes ___No

7. Are you expected to meet productivity goals? ___Yes ___No

8. Have your responsibilities substantially changed under the Appeals Council Process
   Improvement Action Plan? ___Yes ___No

9. If your responsibilities substantially changed, have they
    1) Increased 2) Decreased or 3) Not Applicable?

10. Please rank each of the following ACPI strategies on a scale of 1 to
    10 with 10 being the most effective and 1 the least effective in reducing processing
    days.
    ____Differential Case Management
    ____Office of Appellate Operations Managers Processing Appeals
    ____Expedited Decision-making
    ____Office of the General Counsel Providing Staff Years
    ____Hiring New Staff
    ____Reducing Office of Quality Assurance Sample




Appeals Council Process Improvement Action Plan (A-12-02-12015)                      C-1
11. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10
being the most effective and 1 the least effective in reducing pending workload.
    ____Differential Case Management
    ____Office of Appellate Operations Managers Processing Appeals
    ____Expedited Decision-making
    ____Office of the General Counsel Providing Staff Years
    ____Hiring New Staff
    ____Reducing Office of Quality Assurance Sample

12. Please rank each of the following on a scale of 1 to 10 with 10 being the most
effective and 1 the least effective in helping you perform your job better. (You may use
the same number more than once.)
___Career Opportunities ___Flexiplace ___Technology ___Training ___
Work Environment ___Other (Indicate) _________

13. What effect has ACPI had on your job satisfaction?
      1) Positive 2) Negative 3) No Effect

14. How long have you worked for SSA?

15. What year did you start working in this branch?

   Additional questions we asked Administrative Appeals Judges:
1. Have you worked unanalyzed cases under the Managers Process Appeals (MPA)
   initiative?
2. How many MPA cases do you process per week?
3. How many MPA cases do you process per month?

   An additional question we asked Appeals Officers:
1. How many cases do you process in a month?

     Additional questions we asked the Office of Appellate Operations Managers:
1.   What is your current position?
2.   Have you worked unanalyzed cases under the Managers Process Appeals (MPA)
     initiative?
3.   How many MPA cases do you process per week?
4.   How many MPA cases do you process per month?

     Additional questions we asked Analysts:
1.   Have you screened cases?
2.   If you screened cases, how many do you screen per week?
3.   How many of the screened cases per week do you immediately process?
4.   How many cases do you process in a month?
5.   How many hours of job-related training have you had in the past 3 years?
6.   Has the training helped you perform your job better? ___Yes ___No




Appeals Council Process Improvement Action Plan (A-12-02-12015)                       C-2
                                                                       Appendix D

Questions and Answers to Questionnaire
Administrative Appeals Judges:

1. How long have you worked for SSA? (Indicate the number of years and months.)
                  _24 Years (Average)        7 Months (Average)

2. What year did you start working in this branch? __1996____

3. Have you worked unanalyzed cases under the Managers Process Appeals (MPA)
   initiative?
   (Please place an “x” in the appropriate space.) If you answer “No” to Question 3,
   please skip to Question 6.
                   13 Yes                0 No

4. How many MPA cases do you process per week? 3.65

5. How many MPA cases do you process per month? 18.7

6. Have your responsibilities substantially changed under the Appeals Council Process
   Improvement (ACPI) Action Plan? (Please place an “x” in the appropriate space.)
                  7 Yes             6 No

7. If your responsibilities substantially changed, have they: (Please place an “x” in the
   appropriate space.)
                    7 Increased 0 Decreased 6 did not respond/not applicable

8. Is your branch expected to meet productivity goals? (Please place an “x” in the
   appropriate space.)
                    11 Yes     0 No    2 responses were not applicable

9. Are you expected to meet productivity goals? (Please place an “x” in the appropriate
   space.)
                  10_Yes            3 No

10. How has your workload changed since the start of ACPI in March 2000? (Please
    place an “x” in the appropriate space.)
    12 More work         0 Less work      1 No change
      If you checked “more work” or “less work” please indicate why.
______________________________________________________________________




Appeals Council Process Improvement Action Plan (A-12-02-12015)                       D-1
11. What effect has ACPI had on your job satisfaction? (Please place an “x” in the
    appropriate space.)
    9__Positive     1 Negative      3 No effect

     If you checked “positive” or “negative” please indicate why.
   ________________________________________________________________
   ________________________________________________________________

12. How would you rate the quality of service for claimants under ACPI compared to pre-
    ACPI? (Please place an “x” in the appropriate space.)
    0 Worse      10 Better        3 Same

     If you checked “worse” or “better” please indicate why.
   ________________________________________________________________
   ________________________________________________________________

13. How would you rate case processing under ACPI compared to pre-ACPI? (Please
    place an “x” in the appropriate space.)
    10 More efficient        2 Less efficient  1 No change

     If you checked “more efficient” or “less efficient” please indicate why.
   ____________________________________________________________________
   ____________________________________________________________________

14. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10 being
    the most effective and 1 the least effective in reducing pending workload. (You
    may use the same number more than once.) (Average)

    8.5 Differential case management          3.3 OAO managers processing appeals

   5.6 Expedited Decision-making              1.6 OGC providing staff years

   7.4 Hiring new staff                       7.2 Reducing OQA sample

15. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10 being
    the most effective and 1 the least effective in reducing processing days. (You
    may use the same number more than once.) (Average)

   9.7 Differential case management       3.3 OAO managers processing appeals

   7.7 Expedited Decision-making          1.4 OGC providing staff years

   7.8 Hiring new staff                   6.0 Reducing OQA sample




Appeals Council Process Improvement Action Plan (A-12-02-12015)                      D-2
16. Please rank each of the following on a scale of 1 to 10 with 10 being the most
effective and 1 the least effective in helping you perform your job better. (You may
use the same number more than once.) (Average)

   2.3 Career Opportunities     5.8 Flexiplace   6.9 Technology 5.9 Training

   6.2 Work Environment 9.0 Other (Indicate)___________

17. What changes would you suggest to reduce processing time?
___________________________________________________________________
___________________________________________________________________

18. What changes would you suggest to reduce pending workload?
___________________________________________________________________
___________________________________________________________________


Your cooperation is greatly appreciated. In case we need to contact you
to obtain additional information, please provide the following information:

Your Name: ____________________ Organization: ____________
Telephone Number: ______________ Email Address: ___________




Appeals Council Process Improvement Action Plan (A-12-02-12015)                   D-3
Appeals Officers

1. How long have you worked for SSA? (Indicate the number of years and months.)
                  _14_Years (Average)        _6_Months (Average)

2. What year did you start working in this branch? _2000_

3. How many cases do you process in a month? _284_

4. Have your responsibilities substantially changed under the Appeals Council Process
   Improvement (ACPI) Action Plan? (Please place an “x” in the appropriate space.)
                7 Yes          5 No      7 did not respond/not applicable

5. If your responsibilities substantially changed, have they: (Please place an “x” in the
   appropriate space.)
                 7 Increased 0 Decreased         12 did not responded/ not applicable

6. Is your branch expected to meet productivity goals? (Please place an “x” in the
   appropriate space.)
                  17 Yes       1 No     1 did not respond/not applicable

7. Are you expected to meet productivity goals? (Please place an “x” in the appropriate
   space.)
                 14 Yes        5 No

8. How has your workload changed since the start of ACPI in March 2000? (Please
   place an “x” in the appropriate space.)
   9 More work 0 Less work       3 No change 7 did not respond/not applicable
   If you checked “more work” or “less work” please indicate why.
   ___________________________________________________________________
   ___________________________________________________________________

9. What effect has ACPI had on your job satisfaction? (Please place an “x” in the
    appropriate space.)
     8 Positive 2 Negative 6 No effect 3 did not respond/not applicable
  If you checked “positive” or “negative” please indicate why.
  ___________________________________________________________________
  ___________________________________________________________________

10. How would you rate the quality of service for claimants under ACPI compared to
    pre-ACPI? (Please place an “x” in the appropriate space.)
  3 Worse       11 Better     1 Same 4 did not respond/not applicable
  If you checked “worse” or “better” please indicate why.
  ___________________________________________________________________
  ___________________________________________________________________



Appeals Council Process Improvement Action Plan (A-12-02-12015)                       D-4
11. How would you rate case processing under ACPI compared to pre-ACPI? (Please
   place an “x” in the appropriate space.)
    12 More efficient 1 Less efficient 1 No change 5 did not respond/not applicable
   If you checked “more efficient” or “less efficient” please indicate why.
   ___________________________________________________________________
   ___________________________________________________________________

12. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10
    being the most effective and 1 the least effective in reducing pending workload.
    (You may use the same number more than once.) (Average)

   8.4 Differential case management       3.1 OAO managers processing appeals

   5.9 Expedited Decision-making          2.9 OGC providing staff years

   6.9 Hiring new staff                   5.8 Reducing OQA sample

13. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10
    being the most effective and 1 the least effective in reducing processing days.
    (You may use the same number more than once.) (Average)

   8.7 Differential case management       3.1 OAO managers processing appeals

   5.9 Expedited Decision-making          2.6 OGC providing staff years

   7.3 Hiring new staff                   5.6 Reducing OQA sample

14. Please rank each of the following on a scale of 1 to 10 with 10 being the most
    effective and 1 the least effective in helping you perform your job better. (You
    may use the same number more than once.) (Average)

   6.2 Career Opportunities    5.2 Flexiplace    5.7 Technology 5.1 Training

   7.1 Work Environment        9 Other Indicate______

15. What changes would you suggest to reduce processing time?
___________________________________________________________________
___________________________________________________________________

 16. What changes would you suggest to reduce pending workload?
___________________________________________________________
___________________________________________________________

Your cooperation is greatly appreciated. In case we need to contact you
to obtain additional information, please provide the following information:
Your Name: ________________ Organization: ___________________
Telephone Number: ____________ Email Address: ______________


Appeals Council Process Improvement Action Plan (A-12-02-12015)                    D-5
Office of Appellate Operations Managers
1. How long have you worked for SSA? (Indicate the number of years and months.)
                  _27_Years (Average)        _6_Months (Average)

2. What is your current position? ___________________

3. What year did you start working in your current position in this branch? 1996

4. Have you worked unanalyzed cases under the Managers Process Appeals (MPA)
   initiative?
   (Please place an “x” in the appropriate space.) If you answer “No” to Question 4,
   please skip to Question 7.
                   16 Yes                 19 No

5. How many MPA cases do you process per week? _2.7_

6. How many MPA cases do you process per month? _6.2_

7. Have your responsibilities substantially changed under the Appeals Council Process
   Improvement (ACPI) action plan? (Please place an “x” in the appropriate space.)
           16 Yes              18 No         1 did not respond/not applicable

8. If your responsibilities substantially changed, have they: (Please place an “x” in the
   appropriate space.)
   15 Increased         1 Decreased 19 did not respond/not applicable

9. Is your branch expected to meet productivity goals? (Please place an “x” in the
   appropriate space.)

   25 Yes            2 No          8 did not respond/not applicable

10. Are you expected to meet productivity goals? (Please place an “x” in the appropriate
    space.)
                22 Yes            9 No      4 did not respond/not applicable

11. How has your workload changed since the start of ACPI in March 2000? (Please
    place an “x” in the appropriate space.)
    16 More work 6 Less work 10 No change 3 did not respond/not applicable




Appeals Council Process Improvement Action Plan (A-12-02-12015)                       D-6
12. What effect has ACPI had on your job satisfaction? (Please place an “x” in the
    appropriate space.)    7 Positive 2 Negative 23 No effect 3 did not
    respond/not applicable    If you checked “positive” or “negative” please indicate
    why.
   ________________________________________________________________________________
   ________________________________________________________________________________

13. How would you rate the quality of service for claimants under ACPI compared to pre-
    ACPI? (Please place an “x” in the appropriate space.)
    3 Worse         18 Better          11 Same         1 did not respond/not applicable
    If you checked “worse” or “better” please indicate why.
   ________________________________________________________________________________
   ________________________________________________________________________________

14. How would you rate case processing under ACPI compared to pre-ACPI? (Please
    place an “x” in the appropriate space.)
    17 More efficient    3 Less efficient 7 No change 8 did not respond/not applicable
    If you checked “more efficient” or “less efficient” please indicate why.
   ________________________________________________________________________________
   ________________________________________________________________________________

15. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10 being
    the most effective and 1 the least effective in reducing pending workload. (You
    may use the same number more than once.) If you do not know a particular
    strategy, please put “NA” on the line. (Average)

       6.1 Differential case management       2.1 OAO managers processing appeals

       3.7 Expedited Decision-making          2.1 OGC providing staff years

       4.4 Hiring new staff                   3.2 Reducing OQA sample

16. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10 being
    the most effective and 1 the least effective in reducing processing days. (You
    may use the same number more than once.) If you do not know a particular
    strategy, please put “NA” on the line. (Average)
        6.4 Differential case management       2.2 OAO managers processing appeals

       4.4 Expedited Decision-making          1.9 OGC providing staff years

       4.6 Hiring new staff                   3.1 Reducing OQA sample

17. Please rank each of the following on a scale of 1 to 10 with 10 being the most
    effective and 1 the least effective in helping you perform your job better. (You
    may use the same number more than once.) (Average)

    4.3 Career Opportunities    7.2 Technology     6.2 Training


Appeals Council Process Improvement Action Plan (A-12-02-12015)                         D-7
    6.9 Work Environment        8 Other (specify.) ___________

18. What changes would you suggest to reduce processing time?
___________________________________________________________________
___________________________________________________________________

19. What changes would you suggest to reduce pending workload?
___________________________________________________________________
___________________________________________________________________




Your cooperation is greatly appreciated. In case we need to contact you
to obtain additional information, please provide the following information:

Your Name: _______________ Organization: ____________________
Telephone Number: _____________ Email Address: ____________________




Appeals Council Process Improvement Action Plan (A-12-02-12015)               D-8
Analysts
1. How long have you worked for SSA? (Indicate the number of years and months.)
              __23____ Years (Average)          __6____Months (Average)

2. What year did you start working as an analyst in this branch? __1996______

3. Have you screened cases? (Please place an “x” in the appropriate space.)
              90 Yes      87 No      6 did not respond

4. If you have screened cases, how many cases do you screen per week? _30_

5. How many of the screened cases per week do you immediately process? _16_

6. How many cases do you process in a month? _44_

7. Have your responsibilities substantially changed under the Appeals Council Process
   Improvement (ACPI) Action Plan? (Please place an “x” in the appropriate space.)
   29 Yes         124 No          30 did not respond/not applicable

8. If your responsibilities substantially changed, have they: (Please place an “x” in the
   appropriate space.)
   27 Increased     1 Decreased         155 did not respond/not applicable

9. Is your branch expected to meet productivity goals? (Please place an “x” in the
   appropriate space.)
   165 Yes          8 No        10 did not respond/not applicable

10. Are you expected to meet productivity goals? (Please place an “x” in the appropriate
    space.)
    147 Yes        25 No         11 did not respond/not applicable

11. How has your workload changed since the start of ACPI in March 2000?
    (Please place an “x” in the appropriate space.)

   77 More work      0 Less work 76 No change        30 did not respond/not applicable

12. What effect has ACPI had on your job satisfaction? (Please place an “x” in the
    appropriate space.)

   18 Positive 47 Negative 97 No effect 21 did not respond/not applicable
   If you checked “positive” or “negative” please indicate why.
   ___________________________________________________________________
   ___________________________________________________________________




Appeals Council Process Improvement Action Plan (A-12-02-12015)                       D-9
13. How would you rate the quality of service for claimants under ACPI compared to
   pre-ACPI? (Please place an “x” in the appropriate space.)

   37 Worse     42 Better     57 Same 47 did not respond/not applicable
   If you checked “worse” or “better” please indicate why.
   ___________________________________________________________________
   ___________________________________________________________________

14. How would you rate case processing under ACPI compared to pre-ACPI?
   (Please place an “x” in the appropriate space.)

   61 More efficient   24 Less efficient      57 No change 41 did not respond/not
   applicable
   If you checked “more efficient” or “less efficient” please indicate why.
   ___________________________________________________________________
   ___________________________________________________________________

15. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10
   being the most effective and 1 the least effective in reducing pending workload.
   (You may use the same number more than once.) If you do not know a particular
   strategy, please put “NA” on the line. (Average)

     5.4 Differential case management         3.2 OAO managers processing appeals

     4.0 Expedited Decision-making            2.2 OGC providing staff years

     5.9 Hiring new staff                     3.8 Reducing OQA sample

16. Please rank each of the following ACPI strategies on a scale of 1 to 10 with 10
   being the most effective and 1 the least effective in reducing processing days.
   (You may use the same number more than once.) If you do not know a particular
   strategy, please put “NA” on the line. (Average)

       5.3 Differential case management          3.0 OAO managers processing appeals

       4.0 Expedited Decision-making             2.2 OGC providing staff years

       5.4 Hiring new staff                      3.6 Reducing OQA sample

17. Please rank each of the following on a scale of 1 to 10 with 10 being the most
   effective and 1 the least effective in helping you perform your job better. (You
   may use the same number more than once.) (Average)

   4.0 Career Opportunities     7.6 Flexiplace 6.8 Technology 6.0 Training

   6.2 Work Environment        _9__Other Indicate _____________



Appeals Council Process Improvement Action Plan (A-12-02-12015)                      D-10
18. How many hours of job-related training have you had in the past three years? 143

19. Has the training helped you perform your job better? (Please place an “x” in the
    appropriate space.)       _139___Yes           _34___No 10 did not respond

20. What changes would you suggest to reduce processing time?
___________________________________________________________________
___________________________________________________________________

21. What changes would you suggest to reduce pending workload?
___________________________________________________________________
___________________________________________________________________


Your cooperation is greatly appreciated. In case we need to contact you
to obtain additional information, please provide the following information:

Your Name: ________________ Organization: ____________________
Telephone Number: ______________ Email Address: ____________________




Appeals Council Process Improvement Action Plan (A-12-02-12015)                        D-11
                                                                    Appendix E

                        Profile of Respondents
           The number of years each group has worked at SSA

                                                                  Total Number of
                                           Average Number of      Years Worked at
                                           Years Worked at SSA    SSA (range)


      Administrative Appeals Judges                   24             8 to 31 years

      Appeals Officers                                14             1 to 28 years

      OAO Managers                                    27             8 to 36 years

      Program Analysts                                23             1 to 41 years




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                         Appendix F

NARRATIVE RESPONSES TO QUESTIONNAIRE
For some of the questions we asked respondents to provide narrative comments.
Following is a selection of comments.

REDUCE PENDING WORKLOAD


We received comments from 194 employees on ways to reduce pending workload.
What follows are some excerpts from those comments.

Go back to numeric production standards/expectations.

Stop the DDSs from making determinations on subsequent applications in cases
pending with the Appeals Council. These cases could then be expedited by the
Appeals Council. Dealing with cases in which there has been a subsequent application
with a favorable decision takes a lot of time. (We have to obtain the file and deal with
sometimes inconsistent decisions.) As the Appeals Council reduces processing time,
there should be less need for the DDSs to process these applications since they are
duplicate applications.

Increased emphasis on support staff training and functions.

We need an award system that is adequately funded and based on an evaluation
system that works, not this pass/fail system.

Add more staff to the aged case task force to allow for quicker processing of the old
RRs.

More control of the procedure joining the request for review with the claims file will help
processing time and pending. Awards would help when employees are clearly
exceeding expectations and should be given close to the event.

Branches should not have pending workloads at the Megasite. Cases should be in the
branches and worked immediately, thereby enabling cases to be reviewed and cleared
promptly. This will eventually reduce our pending to a very manageable level. All
vacancies should be filled promptly to ensure that we have adequate staff to process
the work, thereby reducing pending. Our personnel department and budget office are
not in OAO’s chain of command and is not very responsive in filling vacancies promptly.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                         F-1
Working at home increased my productivity tremendously due to less disruption, easier
to concentrate/study cases. Adding an extra day of flexi-place (making it no more than
3 days) would substantially help the entire workforce as people are then held
accountable for work they must produce away from the office.

Overtime should be given to those who maintain processing time above a certain level
and high producers should be able to work either daily or weekend overtime.

More clericals to get the cases here faster and more often.

Develop a reasonable minimum standard so that analysts will know what is expected
and have accountability when the standard is not met.

Provide us with better resources, technology, and work environment and hire more staff
and more workspace.

Screened, easier cases should be given to new analysts. Use the experienced staff to
get out those old, tough cases.

Study the most productive branches and adopt the methods used by their judges, AOs,
and branch chiefs.

We need one control system that tracks claim files from the time they are received in
the hearing office, through the AC, and the Courts. This control system also has to
track claim files that are received, where no particular appeal is pending. Example,
claimant files an erroneous Request for Review form. The claim file and RR come to
the AC. However, the next proper appeal step would be a request for reconsideration.
A letter is sent to the claimant explaining this and the claimant is told that the claim file
is being returned to the district office or sent to a Program Center. Yet, there is no
control of that claim file. These are not controlled and when we complete action on the
RR and if we return the subsequent claim file to a location, there is no way of showing
on the current ACAPS or ICS where the subsequent claim file has been sent. So
technically the files are lost.

Speed up implementation of CD recording of hearings. This would eliminate duplication
of cassettes and allow us to work cases faster.

Have a team of analysts that specifically address incoming requests for review and
keep those from creating a backlog. Put seasoned analysts on the pending backlog.
Keep the incoming cases worked. They get more complicated with time.
Representatives submit all kinds of things that create remands. A more expeditious
response to the request will minimize the remands.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                           F-2
Either suspend the Quality review program or modify it. Most deficiencies found by
OQA involve the credibility finding made by the ALJ. While the AC will not necessarily
remand a favorable determination unless there is reason to believe the decision may
change if such deficiency was addressed, i.e., that the record discusses clear and
convincing reasons to question the claimant’s credibility which were not addressed in
the decision or resolved at the hearing. OQA rarely provides such analysis but instead
generally recommends action without an independent credibility review or with a limited
review based on evidence taken out of context. While OQA will typically state that the
hearing testimony was audited they never provide notes of such audit, which would
allow the AC adjudicator to review the testimony without having to reaudit the entire
hearing testimony. Finally, it would be more efficient to permit the AO to issue
effectuations of favorable determinations under the quality review program. Most OQA
review cases are initially analyzed by an AO. If the AO recommends remand, the case
must be reviewed and the remand action issued by two AAJs which is appropriate and
is the same procedure for remands of unfavorable ALJ decisions. However, if the AO
decides to effectuate the favorable ALJ decision (i.e. deny review), the AO must still
send the recommendation to an AAJ for further review. Such inefficient handoff of
quality review cases when effectuating the decision is unnecessary. An AO can issue a
denial of review of an unfavorable ALJ decision and should have the same authority to
issue denial of review of a favorable ALJ decision. In fact, such disparate treatment of
AC review of favorable versus unfavorable ALJ decisions, provides a further legal
challenge should the entire process ever be litigated. The reason given for denying AO
effectuation, that no court right of review is provided for such actions, is insufficient. If
the claimant had requested AC review of even such favorable action, the case would
have been reviewed and denied by an AO and a right to court review would be
provided.

All OAO employees should be encouraged to work to their full potential.
Communication between management and employees should be increased so that
employees have a clear understanding of their duties and expectations of their
performance.

The aged case task force should be expanded and should continue for the entire fiscal
year until the aged cases and all other cases are within the goal number of processing
days.

REDUCE PROCESSING TIME
We received comments from 200 employees on ways to reduce processing time. Some
excerpts from those comments follow:

Meaningful performance standards for H&A analysts- not just numeric.

Control logistical problems, expand scope of Differential Case Management

Get a bar coding case control system. Integrate all databases into one system. Have a
systematic training plan for all employees, adequately funded.

Appeals Council Process Improvement Action Plan (A-12-02-12015)                          F-3
Use bar coding technology to control cases that go to the megasite. Get a better case
control system. If we always knew where the claim files were, we could work the cases
faster.

Streamline the overall regulatory due process guidelines, particularly with respect to
closing the record.

Requests by attorneys for cassette tapes of hearings should be eliminated by making
two cassette tapes at the hearing and providing one immediately to the claimant and/or
representative, thereby eliminating the need for further correspondence, time spent in
duplication, and the additional extension of time (EOT) which is granted when the
cassette is mailed to the representative under the current system. Requests by
attorneys for copies of exhibits should be eliminated or reduced. If representatives were
present at the hearing, they had the opportunity to review the record then. After that,
most additional evidence, if any, has been provided by the attorney, so disclosure is
unnecessary. Only if additional evidence has been received from other sources should
copies be made, mailed, and an EOT given. Requests for EOTs by attorneys should
not be routinely granted as they currently are. EOTs should be granted the requesting
attorney only if a need is established. Cassettes should not be separated from claim
files as they currently are. This will eliminate lost cassette remands; will eliminate
development time spent waiting for cassettes to be obtained from the cassette library
(which can take months and sometimes years); and will shorten time spent preparing a
case for analytical review. Branches should not be permitted to send their cases
requiring clerical work to the Megasite for storage. Most branches routinely do this,
which results in delay in clerical development. The “closed record rule” should be
strictly applied. Claimants and representatives should not be permitted to introduce
new issues, allegations, or evidence regarding new impairments at the appeals level.
Representatives should be required to discontinue the present practice of certain
attorneys or legal firms of making a wide range of standard contentions and requests in
each case. Some firms use letters, which are virtually identical in all cases. Routing
cases to Attorney Fee Branch and/or DCPI should be changed; all cases should be
routed to DCPI after notices are released instead of before. Although this would delay
notice to congressional offices, it would shorten the time the claimant waits for their
notice.

Streamline procedures and polices--limiting the amount of new evidence that must be
considered at the Appeals Council level, i.e. close the record at the date the hearing
decision was issued.

Provide better and more periodic training for support and professional staff; create
bridge jobs for lower-graded employees.

Better prescreening of cases by support staff to ensure cases are ready for analysts to
work, to reduce “handoffs”, and to assure that all “pre” work (extensions of time, copies
of tapes and exhibits) is done as soon as the case comes into OAO.

Greater emphasis placed on individual and branch production. Thoroughly review what
every employee does at OHA and have more people process claims. OHA’s claims
Appeals Council Process Improvement Action Plan (A-12-02-12015)                          F-4
processing seems to be impacted by a backlog of HAA activities (copying tapes and
exhibits and sending EOT letters). They either need more help, or need to work more
efficiently.
Organize incoming mail and associate with folders more quickly; Scanning techniques
for folder location (use bar codes on all cases); and obtain universal AAJ procedures to
prevent remands that will only end up as a denial anyway.

Immediate follow-up training (4-6 months after initial training) for new analysts to
provide additional skills and techniques for processing case work.

Close the record after the ALJ decision. Much tighter control on diary dates is needed.

Have a team of analysts that specifically address incoming requests for review and
keep those from creating a backlog. Put seasoned analysts on the pending backlog.
Keep incoming cases worked. They get more complicated with time. Representatives
submit all kinds of things that create remands. A more expeditious response to the
request will minimize the remands.

Improve the methods for housing and retrieving claims files from the Megasite and other
folder staging facilities (ODO, PSC, and FSO).

Work cases on a first-come/first served basis, using the request for review date to
determine which claimant is served first.

Provide individual and group awards based on goal achievement and provide awards
with a narrative explaining accomplishments so performance can be duplicated.

DCM can work if it is done on a continuing basis, not just hit or miss. This duty could be
rotated among analysts in the branch, so that no one is left to work only the left over,
more difficult cases. The Branch Chief could determine the number of analysts needed
for DCM, others would be assigned to work old cases and a third group would be
assigned to work cases on the shelves. This would keep all types of cases moving.

Development of a “paperless file” should be very efficient and time saving.

Limit the additional material that may be submitted to the time period covered by the
ALJ’s decision. Encourage AAJs and AOs to limit changes to only what is necessary
and to not make changes on a repetitive basis on the same case.
Require analysts to always provide some analysis to support their recommendations to
the adjudicators (currently analysts are not required to provide an analysis if they do not
think it is necessary—a practice that pre-dates ACPI). While it may save the analysts a
couple minutes to not write up any analysis in support of their recommended action, the
adjudicator must then spend more time evaluating the case before he can make a
decision. This results in duplication of work. There is a tendency for management to
think in terms of individual groups of employees doing their work more quickly rather

Appeals Council Process Improvement Action Plan (A-12-02-12015)                        F-5
than considering the overall processing time. The overall processing time is greater
when the analyst does not provide any analysis or provides an insufficient generic
analysis to support their recommendation to the Council. This has been the single most
problematic practice that impedes my ability to perform efficiently and effectively. The
analyst is not saving a significant amount of processing time by failing to provide this
analysis. Since they have reached a determination on what action they recommend to
the Council after thoroughly reviewing the case file, they should be able to explain why
they are making that recommendation in a fairly expeditious fashion. When there is
insufficient communication between the legal analyst and the Council member, the
likelihood of adjudication error increases. Also, reduce or eliminate OQA samples or at
a minimum require OQA to apply the correct legal standard or review, which is the
substantial evidence standard.

Hire more AAJs. The Acting AAJ detail, while helpful, still results in inefficiencies as
Acting AAJs are barely up to speed before the detail ends, and with clerical and other
delays (editing) in issuing Acting AAJ action by another Acting/AAJ. Even though only
about 25 percent of AC actions are grant reviews requiring action by an AAJ, such
actions are the most complicated and require the most review by the adjudicator. The
largest backlog in AC actions which are pending at the AO/AAJ level are remands or
other grant review actions. Install a new case tracking system similar to the case
tracking system (HOTS) used in hearing offices. Under our current system, all case
movement has to be recorded by a clerical. Or is not recorded at all. For example,
when an analyst has completed review and is passing on a recommended action, they
cannot enter the recommendation into the system directly and pass the
recommendation onto the adjudicator. Instead, the recommendation has to pass
through a clerk who enters it into the system before passing it on. This results in an
additional bottleneck. Furthermore, if I disagree with the recommendation and pass it
on to the AAJ as a recommendation for a remand there is no way of recording such
actions. Also, the adjudicator who decides to return an action to an analyst for further
analysis or action, would do so directly without the additional time consuming process of
going through a clerk to record the change of status in the system. The result is that
clericals do not know in which office cases are currently located and appear to spend
considerable time trying to track down cases to associate mail, including new evidence
and attorney briefs with the file. This problem is compounded by mailroom delays. The
AC could install the HOTs system and just change the HOTs code destinations with
minimal effort and greater improvement in case processing.

The tracking system needs to better identify cases that are pending for 60, 90, 180
whatever days and flag them for special attention before they become unmanageable.
There is a large amount of time and effort put into the copy and correspondence part of
development. The HFAX process is addressing this from one perspective but there
should be some exploration into exactly our duties and obligations to provide this
massive amount of materials to claimant’s reps who ask for it just as a matter of course
and in some cases to delay the case further. The law suggests not that we must
provide copies of the exhibits to the claimant but rather that the claimant shall have
reasonable access to the record. Perhaps a system of responding to requests for tapes
and exhibits with a transfer of the file to the local OHA with instructions that it will remain
there for x number of days for the purpose of copying, transcribing or whatever is
Appeals Council Process Improvement Action Plan (A-12-02-12015)                           F-6
needed by the rep. When the case comes back after x days we tickle it for 40 days and
work it on the 41st. While it is out, it should not count against processing time.

QUALITY OF SERVICE TO CLAIMANT

We received comments from 124 employees on whether the quality of service is better
or worse under ACPI. Some excerpts from those comments follow:

Cases move more quickly. We were not moving the volume of cases pre ACPI that we
move now.

For those who benefit from our working “first in, first out”, our service may well be better.
Since we probably do more “new” than old cases at this point, overall clients likely see
our service as better. For those who have to continue to wait, while we work newer
cases, the service is worse though

Timeliness- however across the Appeals Council there is little consistency in how the
Council’s “review” is actually conducted. In some instances the analyst’s work product
is so scant that the decision-makers must either just accept the analyst’s flat conclusion
or work the case themselves.

The much older and complicated cases that had been shelved are being worked.

Quality of service to claimants is better - many more claimants receive a response in
less time than before ACPI due to the Differential Case Management initiative. Also,
the aged case task force initiative has released many of the oldest pending cases than
would have been processed before ACPI.

It seems like a disservice to work cases out of turn, rather than working the oldest cases
first.

Quality of service is better because claimants are receiving responses to their request
for review in less time; however, service is worse because the quality of work being
done in OAO is being lowered. Cases are being rushed and taking corrective action is
not encouraged. An unspoken rule appears to be, if at all possible, deny the request for
review and get it out of here. I dislike working requests for review that are only a few
months old before requests that are 2 to 3 years old to make the overall processing time
look good.

We are expected to expedite our processing; however, in doing that, some issues that
may benefit the claimant could be overlooked.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                         F-7
EFFECT ON JOB SATISFACTION
We received comments from 92 employees on the effect ACPI had on job satisfaction.
Some excerpts from those comments follow:

We are getting our “pending” workload “down” to where it needs to be, and we are
reducing processing time, thereby giving greater customer service, which has a positive
impact on job satisfaction.

Although my individual workload has increased, the fact that we at the Appeals Council
created and implemented a plan designed to eliminate a backlog brings me a great deal
of satisfaction. It is quite reassuring that we are able to assess and fix our problems.

Many individuals have stepped forward to work together to improve the overall
performance of our operation, and that effort and spirit of collegiality has improved the
work environment.

With productivity goals, ACPI allows cases to be worked out of date order and flexibility
in assigning cases to individuals to process work without much delay. Negative in that,
staff wise, the number of personnel to work cases in each branch is not equal. The
productivity goals established at the beginning of the year are based on the personnel
you have then, there are no adjustments in the goal when there is a loss of personnel
during the year. The lack of goal adjustments doesn’t allow for much job satisfaction
when you cannot meet a goal because you are not given staff replacement.

The job has become a lot more stressful.

Differential case management has enabled my branch to increase productivity and meet
goals, leading to better morale.

I like the idea of reducing pending and processing time. It’s unacceptable that someone
should have to wait 1 to 3 years for a decision. However, increased work has been met
with inadequate resources and insufficient systems and technical support.

When cases are screened 2 or 3 times before I get them in my regular workload, I have
only “problem” or “messy” cases to look forward to, day after day, week after week, &
month after month. This wouldn’t be a particular problem, but the Agency still expects a
level of production more consistent with a mix of “hard” and “easy” cases, rather than a
continuous grind of hard cases. Burnout will be the ultimate result.

Cases that have been “skimmed” and worked out of turn have led to a large workload of
older cases with additional evidence, briefs, and other complicating factors. This has
resulted in difficulties with meeting production goals and will likely worsen in the future.
Our branch is more current than most, so we receive transfers from other branches,
with many older and more time-consuming cases.


Appeals Council Process Improvement Action Plan (A-12-02-12015)                         F-8
I have always disagreed with the policy to process the cases out of order. It is not fair to
make claimants with more difficult cases wait longer for their appeals to be processed
especially since most of these cases are already very old.

EFFICIENCY OF CASE PROCESSING
We received comments from 127 employees on case processing under ACPI. Some
excerpts from those comments follow:

Dispositions, processing time, and overall consistency of Appeals Council actions have
improved significantly; cases are being controlled more effectively.

Differential case management has decreased processing time.

Cases that can be disposed of with little delay are soon finalized.

The cases to be worked must be transferred from the Megasite to the Branches more
quickly. Each branch should devote one-half of the analysts to the Differential Case
Management initiative and the other half to all other cases (employees should have the
option to rotate these assignments), while also maintaining a group of analysts and
adjudicators on the aged case task force initiative. Also, a model short-form analysis
often recommended denials of request for review should be implemented for all
branches (perhaps somewhat unique to each branch as necessary) in order for the
analyses to be more concise but contain reference to pertinent issues/information about
the case. Regarding remands, no analysis should be provided because the remand
order action document should be sufficiently explicit to allow both the Administrative
Appeals Judge and the Administrative Law Judge to understand the action needing
correction. Use of the Remand Macro and the Denial Macro should continue because it
allows analysts to prepare action documents expeditiously.

More streamlined with less handling.

Newer cases are screened making the process in general more efficient.

As far as disposing of cases, ACPI forces individuals to “cut” corners, i.e., not perform a
thorough review of cases to satisfy management’s ever insistent demands for
production of numbers of cases to meet the request for review goals.

The pressure is clearly on analysts for expedited case review- that has to mean that
portions of the evidentiary record are not reviewed or not correctly evaluated in many
cases.

With the decreased backlog, we should eventually start to see cases with less additional
evidence. Many of the cases we see now have large amounts of additional
evidence/contentions, or so much time has passed that the claimants have filed new
claims. We have to consider the subsequent claim as well as the original claims, which
takes much more time and lowers productivity. We are essentially working two cases,
but getting credit for only one, which is not very good for morale.
Appeals Council Process Improvement Action Plan (A-12-02-12015)                        F-9
It is less efficient because easier cases are usually worked first; which gives the
impression that more cases are being processed. However, now that a significantly
lower number of less difficult cases are pending, production is dropping, morale is
declining and management can’t seem to understand that we are now “paying the piper”
for skimming off easy cases.

CHANGES IN WORKLOAD
We received comments from 22 employees on changes in workload due to ACPI. What
follows are some excerpts from those comments

As ACPI productivity goals raised expectations, and to the extent that analysts have
been more productive, workload has increased.

MPA cases caused significant increase in workload.

Added responsibilities, increased case flow, processing non analyst cases from start to
finish, (MPA cases), Case differential where analysts do very little workup so I have to
review cases more thoroughly as analysts are giving very little comment.

Differential case management produces many more denials for my review. Not very
productive detail of work to OGC resulted in more remands to be reviewed and edited.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                        F-10
                                                                      Appendix G

 The Aged Case Task Forces
As part of the differential case management initiative, the Appeals Council placed a
heightened emphasis on processing aged requests for review using streamlined formats
for issuing decisions and remands. The Office of Appellate Operations (OAO)
established an aged case task force which served from May to August 2001. The task
force was led by a coordinator, who was also a branch chief, and had 34 analysts from
different branches who volunteered to be on the task force. Its goals were to clear all
ready-to-work aged requests for review, reduce processing time, reduce pending cases,
and improve public service. The task force defined aged requests as those that are
2 years old or older.

The aged case task force disposed of 4,536 aged cases during its 4 months. OAO
established a second aged case task force which was scheduled to work from January
to May 2002. However, that task force continued until November 2002 and disposed of
5,213 aged cases. The second task force was led by the same branch chief and had
13 analysts. Not all analysts served for the duration of the task force. Some left before
the task force ended and were replaced by other analysts.

During the duration of the second task force, the number of aged cases decreased from
16,489 to 9,688. The additional decrease was due to other aged cases being worked
by the branches. OAO reported that it had 7,992 aged cases at May 31, 2003. OAO
planned to have a third aged case task force early in 2003, but decided instead to focus
on having branches reduce the percentage of pending cases over 365 days to
35 percent or less. We believe the aged case task forces made progress in this area
and OHA can continue to reduce processing days.




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                                                  Appendix H

Agency Comments




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                                        SOCIAL SECURITY


MEMORANDUM                                                                         32052-24-874


Date:      January 5, 2004                                                   Refer To: S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye     /s/
            Chief of Staff

Subject:   Office of the Inspector General (OIG) Evaluation Report, "Appeals Council Process
           Improvement Action Plan" (A-12-02-12015)--INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report
           content and recommendations are attached.

           Please let us know if we can be of further assistance. If you have any questions, please
           contact Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           54636. Staff questions can be referred to Mark Zelenka at extension 51957.

           Attachment:
           SSA Response




           Appeals Council Process Improvement Action Plan (A-12-02-12015)                     H-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT EVALUATION REPORT,
“APPEALS COUNCIL PROCESS IMPROVEMENT ACTION PLAN”
(AUDIT NO. A-12-02-12015)

We appreciate the opportunity to comment on the subject draft report. As stated in the
report, the Office of Appellate Operations (OAO) has made progress reducing its
pending workload and processing times. The factors mentioned include several which
we were already aware of, such as the decrease in receipts during the period in
question. As the report states, the lower receipts allowed OAO to concentrate on
reducing its workloads. However, the decrease in receipts also impacted OAO's
performance in another way that should be mentioned. The original goals were based
on projected receipts and the corresponding number of cases that would be processed,
based on the receipt projections, under Differential Case Management. At times since
the implementation of Appeals Council Process Improvement Action Plan (ACPI),
because of low receipts, the OAO branches had few, if any, cases to work under the
Differential Case Management process. If the projected receipts had materialized, OAO
would have had more "new" cases that would have been processed soon after receipt.
Higher receipts most likely would have had a positive impact on overall processing time
and, perhaps, even on overall productivity as there would have been a higher number of
new cases processed in a relatively short period of time to balance out the aged cases.
Part of OAO's success in case processing in Fiscal Year (FY) 2000 (125,000+ cases
processed) was the large number of cases available for screening under Differential
Case Management.

As the report correctly notes, the original ACPI goals were too ambitious, and more
realistic goals would have served as a better motivation for OAO employees. OAO
management had already come to this realization and instituted revised goals in FY
2003 to replace those in the original plan. The revised goals, though ambitious (e.g., to
reduce the average processing time from 412 days to 300 days), were more realistic
and OAO met all the FY 2003 performance goals.

We are concerned that the fourth paragraph on page 5 of the report might be
misunderstood as saying that the OAO should consider using an aged case task force,
with a view to remanding older cases, because remands result in allowances at a
relatively high rate. If OAO reactivates the task force, the reason would be proven
efficiency in processing aged cases, not because of potential allowances at the hearing
level.

Our response to the specific recommendations is provided below:

Recommendation 1:

SSA should measure the actual dispositions for each of the initiatives prospectively, to
better determine which ones are working best and shift resources accordingly.



Appeals Council Process Improvement Action Plan (A-12-02-12015)                    H-2
SSA Comment:

We partially agree with this recommendation. For example, we can track cases
processed under Differential Case Management. However, other initiatives under ACPI,
such as Expedited Decision-making, do not readily lend themselves to tracking and
measurement.

Cases identified for Expedited Decision-making may also be processed under other
initiatives (primarily Differential Case Management). Therefore, dispositions may not be
attributable solely to this initiative and, therefore, would be difficult to identify for a
reliable statistical model. Accordingly, a determination of the number of additional
actions processed because of this initiative would be a rough estimate at best. We can
only estimate the time savings resulting from oral, as opposed to written, presentations
of cases and the resulting number of cases that would be processed during the "time
saved" would be based on historical averages.

Tracking the Adjustment of the Pre-effectuation Review Sample initiative also presents
a problem. We can only estimate the time that would be needed to process the number
of cases by which the sample would be reduced by this effort and the number of cases
worked in their place. We would base the estimate on historical data concerning the
actions routinely taken on Office of Quality Assurance cases compared with that of the
regular workload.

Also, both the Counsel-to-Council and the Managers Process Appeals initiatives were
short-term projects which now have ended. Therefore, these initiatives cannot be
tracked.

We can, however, continue to track the number of cases processed under the New
Analysts initiative. We already monitor analysts on an individual basis to ascertain the
need for additional training or other performance enhancements.

In short, we believe only Differential Case Management and the number of cases
processed by new analysts can be readily tracked and measured, as recommended in
the report. The other initiatives cannot.

Recommendation 2:

SSA should consider the use of an aged case task force to process cases older than
2 years.

SSA Comment:

We agree and will consider the feasibility of another task force versus other
approaches.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                     H-3
Recommendation 3:

SSA should develop goals that have a much higher possibility of achievement.

SSA Comment:

We agree. We have already revised the goals of the original ACPI plan to ones that are
more realistic. As evidence of this, OAO met all performance goals, revised from the
original plan, in FY 2003.

Recommendation 4:

SSA should consider the suggestions made by employees to reduce pending workload
and processing days.

SSA Comment:

We agree, noting that some of the recommendations, such as returning to numeric
production standards, are out of our immediate control. However, other suggestions,
including increased emphasis on support staff training, creating bridge jobs for lower-
graded employees, and implementing the best practice guide, have already been
implemented.




Appeals Council Process Improvement Action Plan (A-12-02-12015)                    H-4
                                                                          Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Frederick Nordhoff, Director, Financial Audit Division, (410) 966-6676

    Michael Maloney, Deputy Director, (703) 578-8844

Acknowledgments
In addition to the persons named above:

    Melissa McDaniel, Auditor

    Brennan Kraje, Statistician

    Annette Derito, Writer-Editor

For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to common identification number A-12-02-12015.




Appeals Council Process Improvement Action Plan (A-12-02-12015)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                           Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
